CASE No. 20-978

In The Supreme Court of the United States
POPPI METAXAS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Second Circuit
CERTIFICATE OF SERVICE
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

I hereby CERTIFY, pursuant to Supreme
Court Rule 29.5(b), that on this 19th day of March,
2021, true and correct copies of the Petition for Writ
of Certiorari were sent via the U.S. Postal Service,
Priority Mail postage prepaid, to Supreme Court,
One First Street, N.E., Washington, D.C. 20543; and
to the Solicitor General of the United States, Room
5616, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001. All
parties required to be served were served.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

